U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




March 21, 2013

Phillip Klutts
Board Chairman
Experience Works, Inc.
4401 Wilson Boulevard
Suite 1100
Arlington, VA 22203

Dear Mr. Klutts:

This final report (24-13-004-03-360) transmits the results of a Quality Control
Review (QCR) the U.S. Department of Labor’s Office of Inspector General
conducted on the following audit performed by BDO USA, LLP under the Federal
Single Audit Act and Office of Management and Budget Circular A-133:

      Single Audit of Experience Works, Inc. for the Year Ended
      June 30, 2012

We conducted the QCR to determine if: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements,
(2) any issues required management’s attention, and (3) follow-up work was
needed.

Per the table below, we included the following major program in our review.


 DOL Major Program                    Catalog of Federal               DOL Funds
 Reviewed                           Domestic Assistance                 Expended
                                                Number
 Senior Community Service
 Employment Program                                      17.235       $121,206,602

We determined the accounting firm performed acceptable audit work and met the
requirements of the Federal Single Audit Act and Office of Management and
Budget Circular A-133. We also determined no issues required your attention
and no follow-up work was needed.




                   Working for America’s Workforce
                                         -2-


If you have any questions concerning the results of the QCR, please contact
Melvin Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: JoAnne Payton, Director of Finance
    Experience Works, Inc.

   Laurie Rocha, Partner
   BDO USA, LLP

   Jennifer Richards, Audit Liaison
   Employment and Training Administration

   Stephen Daniels, Director
   Division of Policy, Review and Resolution
   Employment and Training Administration
